             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




         Highway Contract Routes –
        Western Pennsylvania District

                         Audit Report




                                        September 27, 2011

Report Number NL-AR-11-007
                                                                  September 27, 2011

                                                        Highway Contract Routes –
                                                      Western Pennsylvania District

                                                        Report Number NL-AR-11-007




IMPACT ON:
Western Pennsylvania District’s highway      WHAT MANAGEMENT SAID:
contract routes (HCRs).                      Management agreed with the finding
                                             and recommendations; however, they
WHY THE OIG DID THE AUDIT:                   did not agree with the monetary impact
Our objective was to determine whether       calculations. The Eastern Area and the
HCR transportation servicing facilities in   Western Pennsylvania District will work
Western Pennsylvania were effective          together and r eview procedures on how
and economical.                              to identify opportunities to reduce
                                             transportation costs. The Eastern Area
WHAT THE OIG FOUND:                          has already verified the elimination or
The Western Pennsylvania District can        modification of 11 trips from the W estern
more effectively manage HCR                  Pennsylvania District, and the changes
transportation processes and schedules,      to 15 additional trips are in process and
thereby reducing costs. We identified        should be completed by October 31,
26 trips that were unnecessary or            2011.
underutilized and can be modified or
removed from existing schedules. By          AUDITORS’ COMMENTS:
making these changes, we estimate the        The OIG considers management’s
Western Pennsylvania District could          comments responsive to the
save about $1.6 million over the contract    recommendations and the corrective
terms.                                       actions should resolve the issues
                                             identified in the report. Regarding our
WHAT THE OIG RECOMMENDED:                    estimated savings, we believe the
Ensure that Western Pennsylvania             amounts are valid based on our review
District managers follow prescribed fleet    of operations and data during the period
management procedures for making             audited.
HCR changes to the schedules in a
more timely fashion, verify the
elimination or modification of 11 trips      Link to review the entire report
already initiated, and eliminate or modify
the additional 15 trips identified during
our audit.
September 27, 2011

MEMORANDUM FOR:            JORDAN M. SMALL
                           VICE PRESIDENT, EASTERN AREA OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Highway Contract Routes – Western
                           Pennsylvania District (Report Number NL-AR-11-007)

This report presents the results of our audit of the Western Pennsylvania District
highway contract routes (Project Number 11XG032NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    David E. Williams
    Cynthia F. Mallonee
    Pamela S. Grooman
    Charles P. McCreadie
    Corporate Audit and Response Management
                                                  TABLE OF CONTENTS



Introduction ............................................................................................................................1

Conclusion .............................................................................................................................1

Unnecessary or Underutilized Trips in HCR.........................................................................2

Recommendations ................................................................................................................3

Management’s Comments ....................................................................................................3

Evaluation of Management’s Comments ..............................................................................3

Appendix A: Additional Information.......................................................................................4

   Background ........................................................................................................................4

   Objectives, Scope, and Methodology ...............................................................................4

   Prior Audit Coverage .........................................................................................................6

Appendix B: Monetary Impacts .............................................................................................7

HCR Schedule Changes and Fuel Cost Reductions ...........................................................7

Appendix C: Management’s Comments ...............................................................................8
Highway Contract Routes –                                                      NL-AR-11-007
 Western Pennsylvania District




Introduction

This report presents the results of our audit of the Western Pennsylvania District’s
highway contact routes (HCRs) (Project Number 11XG032NL000). We determined
whether HCR transportation servicing Western Pennsylvania District facilities were
effective and economical. The U.S. Postal Service Office of Inspector General (OIG)
initiated this audit because the Western Pennsylvania District was one of the at-risk
districts in our operational risk assessment based on key transportation indicators. This
audit was performed in conjunction with an audit on the Western Pennsylvania District’s
Postal Vehicle Services Staffing and Scheduling. See Appendix A for additional
information about this audit.

The U.S. Postal Service transportation network includes both nationwide transportation
between cities and major facilities as well as delivery transportation between local Post
Offices and neighborhood delivery and pick-up points. The Postal Service uses two
types of surface transportation to move mail to and from their facilities. These include
Postal Vehicle Service (PVS) transportation using Postal Service-owned vehicles and
contracted transportation with private contractors known as HCR transportation.
Individual Postal Service areas typically control the HCRs, and Postal Service
transportation managers at the area and local levels are responsible for continually
reviewing these routes to balance on-time service standards with costs. The Postal
Service spends about $3.2 billion annually on HCRs.

Conclusion

The Western Pennsylvania District can more effectively manage HCR transportation
contracts as evidenced by 26 unnecessary or underutilized trips. This condition
occurred because local management was not continually reviewing requirements and
adjusting schedules to address changing workloads and mail volume reductions.

Once the route adjustments are made, the Western Pennsylvania District could save
more than $1.6 million in contract costs and fuel over the term of existing HCR
contracts. The Postal Service could eliminate or modify these trips without negatively
affecting on-time service. Also, the reduction in contracted surface transportation would
help achieve the fuel consumption goals outlined in the Postal Accountability and
Enhancement Act (PAEA). 1




1
    PAEA, Public Law 109-435, dated December 2006.
                                                     1
Highway Contract Routes –                                                      NL-AR-11-007
 Western Pennsylvania District


Unnecessary or Underutilized Trips in HCR

Postal Service officials were not effectively managing HCR transportation contracts as
evidenced by 26 unnecessary or underutilized trips. We determined that management
was not continually reviewing requirements and adjusting schedules, as required by
Postal Service policy, to address changing work loads and reductions. This was due, in
part, to mail volume reductions and other economic conditions. See Appendix B for a
listing of contracts, related trips, and miles recommended for reduction, along with
associated monetary impacts.

According to policy, local managers are responsible for working with the area office to
develop local networks composed of postal-owned and contracted transportation
services to ensure efficient and timely service. As such, the Western Pennsylvania
District facilities could improve the effectiveness of scheduled HCRs and save more
than $1.6 million (see Table 1) in contract costs and fuel over the term of existing HCR
contracts by eliminating or modifying 26 trips.

                                 Table 1. HCR Potential Savings


                                                   Annual Miles   Total Estimated
          Recommended HCR Modifications
                                                    Reduced          Savings


         Postal Service Initiated                      15,366     $      146,364

         Agreed to by Postal Service                  245,718           1,481,611
         Total                                        261,084     $     1,627,975

The Postal Service could eliminate or modify these trips without negatively affecting
on-time service because trip mail volume was low and mail could be consolidated on
other trips. The reduction in contracted surface transportation would also help achieve
fuel consumption goals outlined in the PAEA by reducing fuel use for contracted
transportation by 261,084 miles annually. See Appendix B for our detailed monetary
impact calculations.

Throughout our audit, we coordinated proposed trip changes with Western
Pennsylvania District and Eastern Area transportation managers. The managers
reviewed each OIG proposal in conjunction with their own assessment of operational
requirements, and we discussed any differences. Management agreed the 15 trips we
identified were unnecessary or underutilized and they had already initiated the
elimination or modification of 11 trips during our audit.




                                               2
Highway Contract Routes –                                                      NL-AR-11-007
 Western Pennsylvania District


Recommendations

We recommended the vice president, Eastern Area Operations:

1. Ensure Western Pennsylvania District managers follow prescribed procedures for
   making highway contracts effective and economical, including the continual
   monitoring and adjustment of trips based on need.

2. Verify the elimination or modification of the 11 trips from highway contracts.

3. Eliminate or modify the additional 15 trips from highway contracts.

Management’s Comments

Management agreed with our finding and recommendations; however, they did not
agree with the methodology used for monetary impact calculations. Management stated
that the Eastern Area and the Western Pennsylvania District will work together
reviewing procedures to identify opportunities to reduce transportation. Eastern Area
management also stated they have verified the elimination or modification of the 11 trips
identified during our audit and the additional 15 trip changes have been submitted and
should be fully implemented by October 31, 2011. See Appendix C for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding our
estimated monetary impact, we believe the amounts are valid based on our review of
operations and data during the period audited.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             3
Highway Contract Routes –                                                      NL-AR-11-007
 Western Pennsylvania District




                             Appendix A: Additional Information

Background

The Postal Service transportation network includes nationwide transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. The Postal Service uses two types of
surface transportation to move mail to and from Postal Service facilities. These include
PVS transportation using Postal Service-owned vehicles and contracted transportation
with private contractors known as HCR transportation. Individual Postal Service areas
control the HCRs, and Postal Service transportation managers at the area and local
levels are responsible for continually reviewing these routes to balance on-time service
standards with costs. The Postal Service spends about $3.2 billion annually on HCRs.




                        Source: OIG.

                              Highway contractor parked at the Pittsburgh
                            Processing and Distribution Center (P&DC) dock.



Objectives, Scope, and Methodology

We determined whether HCR transportation servicing Western Pennsylvania District
facilities were effective and ec onomical. Because individual facilities control HCR
operations, we localized our audit approach. This report focuses on HCR operations in
the Western Pennsylvania District in the Postal Service’s Eastern Area.

This audit was self-initiated and performed in conjunction with an audit of the efficiency
of PVS operations in the Western Pennsylvania District. During our work, we visited the
Pittsburgh P&DC as well as other associate offices. We reviewed relevant Postal
Service policies and procedures, interviewed managers and employees, and observed
and photographed operations. We evaluated the type of mail carried and considered
on-time service standards. We examined the cost of HCR operations, including the cost
of individual trips, mileage, and fuel.




                                                  4
Highway Contract Routes –                                                       NL-AR-11-007
 Western Pennsylvania District




                          Source: OIG.

                           Highway contractor moving mail from the Pittsburgh
                                                P&DC


Using Postal Service computer-generated data and other records, we identified 2,360
trips operated under 175 Western Pennsylvania District contracts that had at least one
service point within the district. We did not audit or comprehensively validate the data;
however, we noted several control weaknesses that constrained our work. For example,
some computer files were missing records and had inaccurate trailer load volumes.
Even though data limitations constrained our work, we were able to support our audit
conclusions by applying alternate audit procedures, including source document
examination, and discussion with appropriate officials. We reviewed the fuel reduction
initiatives as contained in the PAEA and determined whether our recommendations
impacted the initiatives. We also applied conservative principles to our schedule
recommendations and cost-reduction estimates.

We conducted this performance audit from April through September 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 24, 2011, and included their
comments where appropriate.




                                                   5
      Highway Contract Routes –                                                              NL-AR-11-007
       Western Pennsylvania District


      Prior Audit Coverage


                                         Final
                           Report       Report          Monetary
   Report Title            Number        Date            Impact                    Report Results
                                                                        We recommended that Great Lakes Area
                                                                        managers follow prescribed highway
                                                                        contract procedures, including the
                                                                        continual monitoring and adjustment of
Highway Contract                                                        trips based on need. We recommended
Route Transportation     NL-AR-10-003   3/1/2010        $3.3 Million    the elimination of six trips identified
– Greater Chicago                                                       during audit fieldwork, the elimination of
                                                                        42 trips agreed to by local management
                                                                        during the audit, and the reassessment
                                                                        of an additional 20 trips. Management
                                                                        agreed with our recommendations.
                                                                        We recommended that Pittsburgh P&DC
                                                                        ensure managers follow prescribed fleet
                                                                        management procedures for making
                                                                        PVS changes to the schedules in a more
                                                                        timely fashion, verify elimination of
                                                                        workhours from trip schedules, and
                                                                        reassess the remaining workhours,
                                                                        documenting the reasons for retaining
                                                                        them. We also recommended the
Postal Vehicle
                                                                        Western Pennsylvania District negotiate
Services – Staffing
                                                                        the use of split days off with local union
and Scheduling –         NL-AR-11-005   8/12/2011       $10.0 Million
                                                                        officials and continue to reduce operating
Western
                                                                        costs through staff reductions. Further,
Pennsylvania District
                                                                        we recommended the scheduling clerk
                                                                        position be eliminated from the employee
                                                                        complement. Finally, we recommended
                                                                        local management issue guidance on the
                                                                        use of chock blocks placed next to truck
                                                                        wheels by PVS motor vehicle operators
                                                                        and provide oversight of chock block
                                                                        usage. Management agreed with our
                                                                        recommendations.


      This report is being issued in conjunction with our ongoing OIG audits on PVS staffing
      and scheduling at selected Postal Service facilities. Our recent PVS transportation
      audits listed above identified opportunities to increase effectiveness of scheduled PVS
      and HCR transportation by eliminating, consolidating or modifying routes. Management
      agreed with our recommendations in these audits. Our review of HCRs in this audit
      used the same methodology and had comparable findings.




                                                    6
Highway Contract Routes –                                                                          NL-AR-11-007
 Western Pennsylvania District



                                    Appendix B: Monetary Impacts


                    Finding                               Impact Category                   Amount
       The Western Pennsylvania District               Funds Put to Better Use 2           $1,627,975
       can more efficiently and effectively
       manage HCR transportation
       processes and schedules, thereby
       reducing costs.


                       HCR Schedule Changes and Fuel Cost Reductions 3


                                                            Number
                                                               of         Annual            Total
              Recommended                  Contract         Affected       Miles         Estimated
                Reduction                  Number            Trips       Reduced          Savings
                                            150214              2             4,061      $     33,467
                                            15032               4             6,213            64,717
                 Postal Initiated
                                            15034               3               364             3,957
                                            15041               2             4,728            44,224
                                            15021               1               909             7,493
                                            15039               4           29,357            272,288
            Agreed to by Postal             15045               2           16,457            136,013
                 Service                    150L7               4             8,306            58,923
                                            150L9               2             7,092            68,932
                                            150Y0               2          183,597            937,962
                                                                                                    $
         Total                                 10             26            261,084        1,627,9755


The standard OIG methodology for calculating the months remaining in the contract is
to use actual months remaining as of a specified date. But if the months remaining are
less than 1 year, the number of months in the renewal is used.




2
  Funds that could be used more efficiently by implementing recommended actions.
3
  Totals slightly different due to rounding.
4
  HCR 15021 had some changes that were Postal Service initiated and some that were OIG recommended and
agreed to by management.
5
  This $1,627,975 will be classified as funds put to better use (funds that could be used more efficiently by
implementing recommended actions), and consists of $1,613,833 in contract savings and $14,142 in fuel savings.


                                                        7
Highway Contract Routes –                                      NL-AR-11-007
 Western Pennsylvania District


                           Appendix C: Management’s Comments




                                           8
Highway Contract Routes –            NL-AR-11-007
 Western Pennsylvania District




                                 9
